No. 20-____
FREDERICK R. WHATLEY,
Petitioner,
v.

WARDEN, GEORGIA DIAGNOSTIC & CLASSIFICATION
CENTER,
Respondent.
CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rule 29.5(a), I certify
a copy of the Petition for a Writ of Certiorari was sent
via 1st class mail to the U.S. Supreme Court and a
digital copy was sent to counsel for the Respondent by
electronic mail on September 8, 2020. The parties
have consented to electronic service.
Sabrina Graham
Sr. Assistant Attorney General
Georgia Office of the Attorney General
Capital Litigation Section
40 Capitol Square, SW
Atlanta, GA 30334
(404) 656-3300
sgraham@law.ga.gov

